                                                                        Office                Hotline

  Office of Inspector General                                           202.692.2900
                                                                        peacecorps.gov /OIG
                                                                        OIG Reports
                                                                                              202.692.2915 800.233.5874
                                                                                              Online Reporting Tool
                                                                                              OIG@peacecorps.gov




To:            Carrie Hessler-Radelet, Director
               Daljit Bains, Chief Compliance Officer

From:          Kathy A. Buller, Inspector General

Date:          August 19, 2014

Subject:       Final Report on the Program Evaluation of Peace Corps/Armenia
               (IG-14-05-E)

Transmitted for your information is our final report on the Program Evaluation of Peace
Corps/Armenia.

Management concurred with all five recommendations. We closed two recommendations based
on a review of corrective actions and supporting documentation. Three recommendations,
numbers three through five, remain open. OIG will review and consider closing these
recommendations when the documentation reflected in the OIG’s comments and the agency’s
response to the preliminary report is received. For recommendation three, additional
documentation is required.

In its response, management described actions it is taking or intends to take to address the issues
that prompted each of our recommendations. We wish to note that in closing recommendations,
we are not certifying that the agency has taken these actions or that we have reviewed their
effect. Certifying compliance and verifying effectiveness are management’s responsibilities.

Our comments, which are in the report as Appendix E, address these matters. Please respond
with documentation to close the remaining open recommendation within 90 days of receipt of
this memorandum.

You may address questions regarding follow-up or documentation to Assistant Inspector General
for Evaluation Jim O’Keefe at 202.692.2904 or to Senior Evaluator Susan Gasper at
202.692.2908.
Please accept our thanks for your cooperation and assistance in our review.

cc:     Laura Chambers, Chief of Staff
        Jacklyn Dao, White House Liaison
        Bill Rubin, General Counsel
        Keri Lowry, Regional Director, Europe, Mediterranean and Asia Operations
        Kristin Besch, Chief of Operations, Europe, Mediterranean and Asia Operations
        Betsy Vegso, Chief of Program and Training, Europe, Mediterranean and Asia
        Operations
        Daryl Sink, Chief, Overseas Operations, Office of Safety and Security
Ken Puvak, Acting Country Director, Peace Corps/Armenia
James Bach, Director of Programming and Training, Peace Corps/Armenia
Terri L Gureno, Director of Management and Operations, Peace Corps/Armenia
Patricia Barkle, Deputy Chief Compliance Officer
Armenia Country Desk
Peace Corps
Office of Inspector General




PC/Armenia Teaching English as a Foreign Language Volunteer
         Danny Schlingman (right) with host family




                     Flag of Armenia


 Final Program Evaluation Report:
     Peace Corps/Armenia
          IG-14-05-E
                                                   August 2014
                                     EXECUTIVE SUMMARY
BACKGROUND
More than 800 Peace Corps Volunteers have served the people of Armenia since the program
was first launched in 1992. There are currently two project areas in Armenia: teaching English as
a foreign language (TEFL) and community and youth development (CYD). At the onset of this
evaluation, 76 Volunteers were serving in Armenia. Peace Corps/Armenia (hereafter referred to
as “the post”) has one training input per year.

WHAT WE FOUND
We found the post generally to be high functioning. Following the agency’s 2012 annual country
portfolio review, 1 the post was asked to identify strategies to revitalize programs. Post leadership
was asked to submit a plan to regional management to address issues, and the Europe,
Mediterranean and Asia (EMA) region committed to providing resources. At the time of our
evaluation, the post had implemented most items on its improvement plan. The improvement
plan seems to have positively affected post operations.

Both the CYD and TEFL projects have had recent project reviews by the agency, and project
frameworks for both projects have been endorsed. The post is on its way to meeting EMA’s
minimum standards for site development and monitoring. While the post has positive working
relationships with its host ministries, it does not have current Memoranda of Understanding
(MOUs) with either of them. We also identified that Volunteer performance reporting needs
improvement.

Overall, the post’s training is well-regarded by Volunteers. Volunteers rated most topics in pre-
service training (PST) highly, especially language and safety and security. Technical training
could use improvement, but all Volunteers in the recent training group rated it either neutrally or
favorably. We also identified that the mid-service training (MST) conference needs
improvement; however, the post has adopted a new planning process, using lessons learned, to
improve future conferences.

In general, we determined that the post has developed a solid Volunteer support structure and
that Volunteers are satisfied with the support they receive. There is frequent, open
communication between Volunteers and staff, and Volunteers receive numerous site visits from
staff. The post’s safety and security systems are strong. Volunteers believe the safety and
security coordinator (SSC) takes his job very seriously and are confident in his ability to do the
job.

We found the post to be well-managed and that staff turnover has not been a significant issue for
the post. However, staff leadership positions are due to turnover soon and could be a challenge
for the post. We did identify some problems with staff communication. The rationale and
background for decisions by post or headquarters were not clearly understood by staff.

1
  The Country Portfolio Review process aims to provide the agency with an evidence-based approach for guiding
strategic decisions and targeting resources. Posts are ranked according to their performance in a number of indicators
and are placed into one of several categories.


Final Program Evaluation Report: Peace Corps/Armenia                                                                 i
RECOMMENDATIONS IN BRIEF
Our report contains five recommendations, which, if implemented, should strengthen post
operations and correct the deficiencies detailed in the accompanying report.




Final Program Evaluation Report: Peace Corps/Armenia                                      ii
                                                        TABLE OF CONTENTS

EXECUTIVE SUMMARY .....................................................................................................................i

HOST COUNTRY B ACKGROUND ......................................................................................................1

PEACE CORPS PROGRAM BACKGROUND........................................................................................2

EVALUATION RESULTS ....................................................................................................................3

          P ROGRAMMING ....................................................................................................................................................... 3

          TRAINING ................................................................................................................................................................ 7

          VOLUNTEER S UPPORT .......................................................................................................................................... 10

          MANAGEM ENT CONTROLS ................................................................................................................................... 13

OTHER AREAS OF CONCERN .........................................................................................................16

LIST OF RECOMMENDATIONS .......................................................................................................18

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY.............................................................19

APPENDIX B: INTERVIEWS CONDUCTED ......................................................................................20

APPENDIX C: LIST OF ACRONYMS ................................................................................................23

APPENDIX D: AGENCY’S RESPONSE TO THE PRELIMINARY REPORT...........................................24

APPENDIX E: OIG COMMENTS .....................................................................................................28

APPENDIX F: PROGRAM EVALUATION COMPLETION AND OIG CONTACT................................29
                         HOST COUNTRY B ACKGROUND
The Republic of Armenia is a mountainous country located at the crossroads of Western Asia
and Eastern Europe. It is bordered by Turkey to the west, Georgia to the north, Azerbaijan to the
east, and Iran and the Azerbaijani exclave of Nakhchivan to the south. It is slightly smaller than
Maryland with a population of approximately three million people.

                                    Figure 1. Map of Armenia




Armenia has a long and complex history marked by many struggles for independence and the
domination of foreign powers. Armenian civilization traces back to the sixth century B.C. and it
became the first state in the world to adopt Christianity as its religion. By the 19th century, it was
divided between the Ottoman and Russian empires. During World War I, at least one million
Armenians living in the Ottoman Empire were killed. While briefly independent, Armenia was
incorporated into the Soviet Union in 1922. The modern Republic of Armenia became
independent in 1991. Shortly after, Armenia broke into war with neighboring Azerbaijan over
the predominately ethnically Armenian enclave of Nagorno-Karabakh in southwestern
Azerbaijan. Numerous efforts at peace talks have failed to settle the status of the enclave;
Nagorno-Karabakh remains a “frozen conflict” zone.

The recent economic recession severely hurt the Armenian economy, which relies heavily on
workers’ remittances, particularly from Russia. As the majority of Armenia’s critical
infrastructure (most significantly, its energy distribution system) is owned and/or managed by
Russia, Armenia is heavily dependent on Russian commercial and governmental support. In


Final Program Evaluation Report: Peace Corps/Armenia                                                 1
1988, a massive earthquake destroyed several cities in the North, killing 25,000 people and
leaving tens of thousands of people homeless.

Because of its geographic isolation, limited export base, and monopolies in key business sectors,
Armenia is especially vulnerable to deterioration in the global economy and economic downturn
in Russia. Armenia has just two open trade borders with Iran and Georgia. Its borders with
Azerbaijan and Turkey closed in 1991 and 1993, respectively, due to ongoing conflict with
Azerbaijan over the separatist Nagorno-Karabakh region.

According to the 2013 United Nations’ Human Development report Armenia ranks among
countries in the “high human development” category (87 out of 187 countries), 2 which is slightly
below the average for countries in this category and for countries in Europe and Central Asia.
Two countries close to Armenia in 2012 HDI rank and population size, Georgia and Azerbaijan,
have HDIs ranked 72 and 82 respectively.


                    PEACE CORPS PROGRAM B ACKGROUND
The post has been in existence for over 20 years; since that time more than 800 Volunteers have
served in Armenia. The bilateral country agreement was signed between the United States and
Armenia on September 24, 1992. Current Volunteers work in one of two sectors: TEFL or
community and youth development CYD. In 2010, the community health education and
environmental education projects were phased out.

The post receives one trainee input per year. The most recent group of 31 trainees arrived in May
2013; the next training input will start in August 2014, and their training is scheduled to last for
11 weeks. While some Volunteers are placed in large cities (up to 200,000), most are placed in
smaller towns (less than 50,000 people) or villages (less than 5,000).Volunteers in both the
TEFL and CYD projects integrate cross-sector programming priorities (CSPP) such as
technology for development, host country volunteerism and youth as resources into their work.
The post also has two stand-alone CSPP committees: Gender Equality and HIV/AIDS. The
projects Volunteers are engaged in are:

    • Teaching English as a Foreign Language
    Volunteers teach in secondary schools, colleges, universities, training centers, and other
    institutions of higher learning. Volunteers work to improve the quality of English education
    through both formal instruction and non-formal activities such as after-school clubs.

    • Community and Youth Development
    This project was formerly known as community business development. In 2012, the project
    underwent a formal review and it was determined that the project should shift away from
    business development, which was often difficult due to the country’s regulatory environment,
    and towards community and youth development, a priority of the government that better fit
2
  “The Human Development Report” publishes an annual Human Development Index. The Index provides a
composite measure of three basic dimensions of human development: health, education, and income. Countries are
ranked from “very high human development” to “low human development” based on related data.

Final Program Evaluation Report: Peace Corps/Armenia                                                             2
    the capacity of Peace Corps Volunteers. CYD Volunteers work with local non-governmental
    organizations, youth centers, and educational institutions to implement programs that result
    in positive youth development and build organizational capacity and professionalism. They
    engage in a variety of projects, from advising organizations in human resource management
    practices to organizing entrepreneurship camps for youth.

Following the agency’s 2012 annual country portfolio review, the post was one of four in the
EMA region, identified by regional management as needing additional attention. The EMA
regional director held a three day country portfolio review meeting with senior leadership from
each of these posts to identify strategies to revitalize programs and improve indicator scores. The
post’s challenge areas centered on programming and Volunteers feeling engaged in their work.
Post leadership was asked to submit an improvement plan to address issues, and the region
committed to providing resources. The post’s major plans included: continuing to “focus in” 3 the
TEFL and CYD project sectors, conducting a project review of the TEFL project, conducting a
PST review, shifting trainee input to better align with partner and training needs, considering
full-time homestays for Volunteers, conducting more thorough identification and better vetting
of sites, and reviewing and revising programming and training staff statements of work and
performance evaluations and expectations.

The Office of Inspector General (OIG) last conducted a country program evaluation of the post
in 2004. An OIG audit was conducted in 2013. The post’s fiscal year (FY) 2013 budget was
approximately $1.5 million. 4 At the time of the evaluation, the post had 27 permanent staff
positions. The post does not currently have a Peace Corps Volunteer Leader or Peace Corps
Response program.



                                      EVALUATION RESULTS
PROGRAMMING

The evaluation assessed the extent to which the post has developed and implemented programs
intended to increase the capacity of host country communities to meet their own technical needs.
To determine this, we analyzed the following:

    •    the coordination between the Peace Corps and the host country in determining
         development priorities and Peace Corps program areas;
    •    whether post is meeting its project objectives;
    •    counterpart selection and quality of counterpart relationships with Volunteers;
    •    site development policies and practices.



3
  The Focus In/Train Up strategy is designed to maximize the skills of Volunteers with limited expertise and/or work
experience.
4
  This amount does not include the salaries, benefits, and related cost of U.S. direct hires assigned to post and other
costs the agency has determined should be centrally-budgeted.

Final Program Evaluation Report: Peace Corps/Armenia                                                                 3
In our assessment of post programming, we interviewed relevant headquarters offices, post staff,
program partners and Volunteers and analyze project documentation. We determined that the
post has a strong programming foundation. For the last three years, the post has been working on
improvements in many aspects of programming. The 2012 country portfolio review focused
attention and committed resources to these ongoing initiatives. The post has continued to “focus
in” its projects, improve its site development process, and identify potential solutions and
process changes to improve its Annual Volunteer Survey (AVS) scores. The post’s AVS scores
related to primary job assignment is one of the indicators in the country portfolio review process.
Both project areas have recently been reviewed and their project frameworks have been
finalized. In reviewing the project objectives, site development and monitoring, coordination
with host country project partners, counterpart selection and grant funding, we found no
significant areas of concern that would necessitate action by the post.

Project Objectives. Both the CYD and TEFL projects have had recent project reviews, and their
project frameworks have been endorsed by headquarters. Ninety percent of interviewed
Volunteers (18 of 20) rated favorably their understanding of their project goals and objectives,
but only 35 percent (seven of 20) favorably rated their ability to achieve them. Fifty-five percent
(11 of 20) rated neutrally. 5 Some challenges Volunteers in the CYD sector listed were their
organizations not fully understanding the role of the Volunteer or having dedicated resources.
TEFL Volunteers cited challenges such as the Armenian school system, classroom management,
and not having level-appropriate learning materials for students. Volunteers in both sectors cited
counterpart turnover as a challenge.

Site Development and Monitoring. Eighty percent (16 of 20) of interviewed Volunteers rated
their satisfaction with site placement favorably; the remaining twenty percent were neutral.
Many different staff is involved in the site development process and currently serving Volunteers
play a role in evaluating and recommending potential sites. Counterparts also speak to
prospective counterparts about what it was like to work with a Volunteer. Staff discussed the
challenges with managing all of the data that feeds into site development and would welcome
guidance and tools from headquarters.

At the time of our visit, the post had made progress meeting the EMA’s minimum standards for
site development and monitoring. The EMA region identified site development and monitoring
as one of its top priorities for quality improvement. In September 2013, the EMA region released
its “Minimum Standards for Site Development and Monitoring,” which lists the essential
activities of identifying, selecting, and approving sites and visiting Volunteers during the course
of their service. The region’s FY 2014 – 15 Integrated Planning and Budgeting System guidance
asks posts ensure that systems and documentation are in place to fully meet these standards by
September 2014.

Though the post’s site development process is documented in a procedural manual, some forms
that contain the majority of information needed to evaluate a site are not explicitly referenced.
The manual is also specific to site identification and development. It does not cover the

5
  Volunteer interviews were conducted using a standardized interview questionnaire, and Volunteers were asked to
rate many items on a five-point scale (1 = not effective, 3 = neutral, 5 = very effective). The percentage of
Volunteers who gave a favorable rating includes those who gave ratings of “4” or “5”.

Final Program Evaluation Report: Peace Corps/Armenia                                                               4
monitoring process or tools needed after a Volunteer has been placed at site, such as the site visit
process or site locator forms. The post collects this information but does not reference it in the
manual.

Counterpart Selection. All Volunteers we interviewed had at least one counterpart; many had
worked with or were currently working with multiple counterparts. Volunteer ratings of their
counterparts’ support in meeting project objectives were as follows:

   •   45 percent rated favorably (nine of 20)
   •   35 percent rated neutral (seven of 20)
   •   20 percent rated poorly (four of 20)

Programming staff believed that the amount of training and orientation counterparts received was
sufficient in the last year; Small Project Assistance (SPA) funding had helped fund these
trainings.

                       Table 1. Volunteer Relationships with Counterparts
       Working relationship with primary
                                                    55%                    35%       10%
                 counterpart
        Counterparts support in meeting
                                                  45%                35%           20%
               project objectives
                                           0%    20%      40%       60%      80%      100%
                                   % Favorable    % Neutral     % Unfavorable




Grant Funding. Half of the Volunteers we interviewed had participated in a grant-funded
project (seven Small Project Assistance (SPA) and three Peace Corps Partnership Program), but
only two of those Volunteers felt able to give a rating as to how well the project was operating
due to either their role in, or the timing of the process. Both ratings were favorable.

Though no major concerns were identified, the post was planning to conduct an evaluation of the
effectiveness of SPA projects and use the results for continuous improvement. The evaluation
will assess the level of community involvement, the community's perception of the project, and
project outcomes and effects.

Coordination with Host Country Project Partners. The Peace Corps’ country agreement with
Armenia has been in effect since 1992. The post distributes an annual report to stakeholders but
the post needs to make sure that the performance data reported by Volunteers is reliable and
accurate. Also, an area of concern that surfaced in our review is the MOUs for both project areas
have expired and are currently under review by its stakeholder ministries. Additional information
on this topic follows in the section below.




Final Program Evaluation Report: Peace Corps/Armenia                                               5
While the post has many fundamental programming elements in place, the evaluation did
uncover some areas that require management attention, particularly related to MOUs and project
performance reporting. The remainder of this section provides more information about these
topics.

The Post does not have current MOUs with host country ministries.

The post does not have current MOUs with its respective stakeholder ministries for either the
CYD or TEFL projects. The post uses Project Advisory Committees (PACs) to coordinate with
host country project partners. Both projects’ PACs have ministry-level representation. The focus
of recent PAC meetings has been to review the newly focused project frameworks.

Programming and Training Guidance: Project Design and Evaluation highly recommends that
every project have a current national or ministry level MOU. “Memoranda of Understanding that
establish a clear understanding of the goals, objectives, and working relationship between the
Peace Corps and host ministries help to manage expectations and add credibility to the Peace
Corps’ work in the country.” Additionally, Characteristics and Strategies of a High Performing
Post indicator 6.2 provides guidance that, “Peace Corps and host country partner agencies have
memoranda of understanding, which describe and give guidelines for the cooperation between
them. The MOU sets out the roles and responsibilities between the parties.”

While both ministry representatives we met with during evaluation fieldwork spoke positively
about their relationships with the Peace Corps, the lack of MOUs could be detrimental to the
Peace Corps program. With no formal understanding of the goals and objectives of Peace Corps’
work in Armenia, and without clear guidelines for cooperation, there could be a misalignment of
expectations, roles, or responsibilities between the post and its project partners.

               We recommend:

                 1. That the post develop a memorandum of understanding
                    for the teaching English as a foreign language project
                    with the appropriate Armenian ministry.

                 2. That the post develop a memorandum of understanding
                    for the community and youth development project with
                    the appropriate Armenian ministry.


Volunteers’ project performance data is not reliable.

As part of the annual project status reporting (PSR) process, Volunteers are required to submit
periodic reports using the Volunteer Reporting Form (VRF). Since 2008, the Volunteer
Reporting Tool (VRT), which comprises the VRF, has been the primary reporting mechanism
Volunteers use to capture project activities and outcomes and other aspects of their service. This
data is used in the agency-wide aggregation included in the agency’s Performance and
Accountability Report.

Final Program Evaluation Report: Peace Corps/Armenia                                                 6
Volunteers were not accurately completing their VRFs. Only 12 of 20 Volunteers interviewed
had completed VRF reports at this point in their service and almost half of the Volunteers in our
sample had not been in service long enough to be required to submit a report. When asked “How
reliable is the information in your trimester or quarterly reports?” Fifty-five percent (six of 11)
reported favorably. Even though they rated themselves favorably, Volunteers comments raised
concerns. Volunteers reported that they did not understand what was expected of them and that
they used numbers “that made sense to them” when filling out the VRT. A Volunteer
commented, “We don’t have good universal assessment tools and what I put down as
improvement, someone else in another place might say it’s not improvement. It’s very
unreliable.” Some Volunteers commented that they had not received training. Others stated that
training included discussions about modified project goals and objectives but did not sufficiently
address tools or how to enter data in the VRF. Volunteers also commented that VRF training was
rushed or delayed because a new version of the application would soon be released.

A major redesign of the VRT was started in 2012 to accommodate programming and training
changes introduced through Focus In/Train Up (FITU) and make technology upgrades. The post
volunteered to be an early adopter of the new VRT but, at the time of our evaluation fieldwork, it
had not been rolled out. Because the new VRF and accompanying process had not been
completed, the post had delayed training Volunteers on it. Additionally, the EMA Monitoring
and Evaluation workshop on data collection and tools was postponed due to the partial U.S.
government shutdown in October 2013. However, agency performance reporting was still
required.

Volunteer performance reports are necessary to meet agency reporting requirements and, if used
effectively, can also play an important role for staff to provide technical guidance, support, and
timely responsiveness to problems experienced by Volunteers. Inaccurate data sets have the
potential to disrupt analysis and prevent the agency from understanding the impact it has on host
countries.

               We recommend:

                 3. That the director of programming and training ensure
                    that Volunteers are fully informed on how to accurately
                    complete the volunteer reporting form.

TRAINING

Another objective of the post evaluation is to answer the question, “Does training prepare
Volunteers for Peace Corps service?” To answer this question we considered such factors as
training adequacy and planning and development of the training life cycle.

Overall, the post’s training is generally well-regarded by Volunteers. The post uses a
community-based training model. Volunteers and language and cross cultural facilitators (LCFs)
live with host families in training villages during PST. The post has updated the standard FITU
training packages to be specific to Armenia. To make sure trainings resonate with trainees and

Final Program Evaluation Report: Peace Corps/Armenia                                              7
Volunteers, the post uses training advisory groups, which are comprised of Volunteers, to
develop trainings. In 2013, the post had a PST review performed by a director of programming
and training (DPT) from another post, which focused on session content and sequencing. Staff
found the review helpful. The post has also focused on language acquisition by offering a pre-
departure online course for invitees.

In reviewing the post’s assessment of trainees’ achievement of learning objectives, training
evaluation, and the adequacy of resources to support the post’s training program, we found no
significant areas of concern that would necessitate action by the post.

Assessment of Trainees’ Achievement of Learning Objectives. The post uses different
methods to assess trainee’s achievement of learning objectives, such as observation and on-the-
spot assessment of the trainer. The post distributes a handbook for each project that lists
technical competencies and learning objectives that trainees are expected to achieve based on
project frameworks. The post also employs a written safety and security test.

Even though the post is already performing well in this area, it will continue to make
improvements as part of an agency-wide process to adopt global learning standards. According
to a December 2013 decision memo, Peace Corps posts will adopt global learning standards as a
means to guide high quality training. Having global learning standards ensures that all posts
measure achievement of a standard set of learning objectives through a standard set of methods.
The Trainee Assessment Portfolio will function as a formative assessment throughout PST and
summative evaluation of a trainee’s knowledge, skills and abilities at the end of PST.

Training Evaluation. The post used different methods to obtain Volunteer perspectives about
the effectiveness of its training program and make improvements based on their feedback.
Throughout PST, staff solicits feedback from trainees and makes improvements on an ongoing
basis. The post also solicits PST effectiveness evaluations after Volunteers have been at their
sites for at least three months. In-service training (IST) assessments are also gathered within a
month of the event’s completion.

Adequacy of Training Resources. There were no concerns about the adequacy of resources for
training, although changing the timing of trainee inputs from the third to the fourth quarter,
raised some concerns about the post’s ability to identify and hire new LCFs.

Training Effectiveness. Volunteers we interviewed were generally satisfied with the quality of
Peace Corps training as ratings show in the figure below. They found PST to be very effective in
the areas of language and safety and security, and less effective in other areas. Volunteers were
generally satisfied with trainings that occurred after PST but did not find MST to be effective as
we will discuss further in the following section.




Final Program Evaluation Report: Peace Corps/Armenia                                                8
               Table 2: Volunteer Perceptions of PST Training Effectiveness
                           0%            20%         40%           60%          80%           100%

          PST Language                                      95%                              5%

      PST Cross Cultural                      50%                        35%            15%

   PST Safety & Security                                    95%                              5%

            PST Medical                   45%                             50%                5%

          PST Technical            25%                       50%                      25%

        Mid-Service IST     8%        17%                           75%

 Project Design & Mgmt                                  90%                                 10%
                                % Favorable     % Neutral     % Unfavorable

                                    Source: OIG Interviews 2013
                        PST: N=20, MST: N=12, Project Design and Mgmt: N=10

Fifteen percent of Volunteers we interviewed (three of 20) rated cross-cultural training
unfavorably in terms of effectiveness. Volunteers wanted more information on issues they
expected to face during service, such as cultural norms around sex, struggles minorities would
face, and how to find a balance with being oneself in a culturally appropriate way. One
suggestion was to use panels of currently serving Volunteers to discuss the ways they had
addressed issues.

While only 45 percent of Volunteers rated medical training favorably, 50 percent were neutral.
Both our Volunteer interviews and the post’s PST Evaluation Report identified the need for post
to provide more information on identifying mental health issues and strategies for handling stress
and loneliness.

Twenty-five percent of Volunteers (five of 20) rated technical training a “1” or “2” in terms of
effectiveness; these Volunteers were from both project areas and had all been in country at least
a year. TEFL Volunteers were concerned that technical training was too theoretical, and CYD
Volunteers were concerned that sessions were too basic or were not applicable to their site
assignments. However, all Volunteers in the most recent input rated technical training neutrally
or favorably for TEFL and favorably for CYD. The timing of the next training input has been
adjusted and will occur later in the year. This will enable the post to provide an authentic
Armenian school experience for the TEFL Volunteers’ PST practicum.

With the exception of MST, Volunteers were generally satisfied with trainings that occurred after
PST. Ninety percent of interviewed Volunteers who had taken the project design and
management training rated it favorably, and many said it was the best training Peace Corps
offered. The interviewed Volunteers who participated in safety and security warden training



Final Program Evaluation Report: Peace Corps/Armenia                                                 9
rated it favorably. The U.S. Embassy regional security officer (RSO) was impressed with the
training’s table top exercise on crisis management.

The one training area we determined that needs management attention is MST.

MST was not effective.

Mid-service training is generally held 12 months after PST. Programming and Training
Guidance: Training Design and Evaluation states, “While the midservice point in service is
important for reviewing the successes and challenges of Volunteers’ service, sharing ideas, and
providing additional skills and support as necessary, it is a challenging conference to do well.”

Seventy-five percent of Volunteers (nine of 12) rated MST a “1” or “2” in terms of effectiveness.
Volunteers said that it was poorly planned, topics were not relevant, and materials were not fully
defined. Volunteers also stated that training content should come from the country program or
experts rather than only soliciting Volunteer requests.

       “There was a very open agenda and I don’t think we should be responsible for what needs to be done at
       training. Peace Corps has been in Armenia for 20 years and they know better what phases we are in and
       where we are in our service. Having choices is helpful, but I felt like it was thrown together at the last
       minute.”

       “Peace Corps is constantly asking us what we want in the training and will we do the training for each
       other… On the one hand it’s good to say - what do you need training on? We’ll make sure we get a session
       on that, but it also seems to me that after more than 50 years Peace Corps… should know what trends are
       happening and what Volunteers need. At least 50 percent of the training should be determined and
       facilitated by the country office or an expert in the community. Our MST for [our group] was a disaster
       because the content was so worthless.”

While the Programming and Training Guidance does not define what must be covered during
MST or how effectiveness should be measured, many Volunteers we interviewed believed it was
a waste of time and money. Post staff received Volunteer feedback about MST’s ineffectiveness
following the event. Staff recognized that the timing of the training was challenging because it
overlapped with PST. Following this event, the post implemented a new planning process for
trainings. The process requires having major tasks completed, such as a signed contract, 28 days
before the training occurs. It has facilitated collaboration between the Programming and Training
and Administrative Units.

                We recommend:

                  4. That the director of programming and training monitor
                     the effectiveness of in-service trainings and make
                     improvements, if necessary.

VOLUNTEER SUPPORT

Our country program evaluation attempts to answer the question, “Has post provided adequate
support and oversight to Volunteers?” To determine this, we assessed numerous factors,

Final Program Evaluation Report: Peace Corps/Armenia                                                                10
including staff-Volunteer communications; project and status report feedback; medical support;
safety and security support, the Emergency Action Plan (EAP), and the handling of crime
incidents; and the adequacy of the Volunteer living allowance.

We determined that the post has developed a solid Volunteer support structure and that
Volunteers are generally satisfied with the support they receive. In reviewing staff-Volunteer
communications, Volunteer performance report feedback, site visits, medical support, Volunteer
allowances, emergency preparedness, crime incident response, and housing checks, we found no
significant areas of concern that would necessitate action by the post.

Volunteers’ ratings for support in specific areas were as follows:

                Table 3: Responses on Perceptions of Volunteer Support 6
                                0%          20%            40%          60%          80%         100%

                           CD                              80%                             15% 5%

                          DPT                      53%                   21%               26%

                         DMO                                     100%

           Program Managers                                80%                             15% 5%

           Regional Managers                              79%                          11% 11%

            Training Manager                                   88%                            12%

            Safety & Security                                    100%

                      Medical                            68%                          26%        5%

                                     % Favorable     % Neutral       % Unfavorable

                    Source: OIG Interviews November 2013.

Staff-Volunteer Communications. The evaluation determined that there is frequent open
communication between Volunteers and staff. Staff regularly seeks Volunteer feedback and is
generally aware of Volunteer needs and concerns. Some of the feedback mechanisms used to
gather Volunteer input include surveys, training evaluations, personal communications, and the
Volunteer Advisory Committee. Staff regularly communicates with Volunteers through
newsletters and personal interactions through text messages, phone calls, and email.
Telecommunications infrastructure, both mobile phone and internet, seem reliable in all areas of
the country in which Volunteers are placed.


6
 Denominator numbers (N) are based on the number of Volunteers who responded to our questions. For CD,
Program Managers, and Safety and Security Coordinator N=20; for DPT, Regional Managers and Medical N=19;
for Training Manager N=17; and for DMO N=13.

Final Program Evaluation Report: Peace Corps/Armenia                                                       11
Volunteer Performance Report Feedback. Staff provide regular feedback to Volunteers’
performance reports. All Volunteers in our sample who had submitted reports had received
feedback. Volunteers commented that the feedback was broad, positive and timely; 92 percent
(11 of 12) of the Volunteers who answered the question rated the quality of VRF feedback as
three or better on the five-point Likert Scale (3.6 average).

Site Visits. Volunteers in Armenia receive numerous site visits. All but one Volunteer (19 of 20)
in our sample believed that the number of site visits they received was adequate; the one
Volunteer who said the number was not adequate stated that there were too many site visits.
Seventy-nine percent (15 of 19) of Volunteers favorably rated the quality of their site visits.

Medical Support. Volunteers were mostly satisfied with the medical care they received during
service. The Office of Health Services (OHS) conducted a site assessment visit in September
2013 which found no concerns with the quality of care provided by the unit or deficiencies in
health unit operations. Only one of the 19 Volunteers interviewed during the evaluation rated
medical support as unfavorable. 7 Despite the generally positive ratings, some female Volunteers
raised concerns about feeling uncomfortable approaching Peace Corps medical officers
(PCMOs) for support because of concerns about professionalism or bedside manner. OIG had
follow-up conversations with headquarters staff in OHS and with post to discuss specific
concerns and suggestions for how to address Volunteers’ concerns.

Volunteer Allowances. In general, Volunteers were satisfied with the adequacy and timeliness
of settling-in and living allowances and reimbursements. Ninety-five percent of Volunteers rated
the adequacy of their settling in allowance as “sufficient” or “more than sufficient,” and 80
percent of Volunteers rated the adequacy of their living allowance as “sufficient” or “more than
sufficient.” The director of management and operations (DMO) reported that the living
allowance survey is completed every year, and a settling-in allowance survey is completed with
each group. An emergency living allowance survey was conducted in November 2013 to address
a dramatic increase in utility costs; an increase to the Volunteer living allowance was
subsequently approved by regional management.

Emergency Preparedness. The post’s safety and security systems seem strong. Volunteers
believe the SSC takes his job very seriously and are confident in his ability to do the job. The
SSC has been with Peace Corps since the position was created in 2002 and has a strong disaster
response and emergency preparedness background.

Post uses a site locator form (SLF) control sheet to keep track of when SLFs are reviewed and
whether additional detail is needed. Post also has a site summary sheet, which includes a listing
of incidents and related notes or recommendations, for each site in its site history file.

Staff and Volunteers seem prepared to respond in case of an emergency. All Volunteers
interviewed at their site had an up-to-date copy of their EAP. Ninety percent of interviewed
Volunteers correctly identified their consolidation points. The post had a sound duty officer
system. The duty officer handbook was clear and well-organized. A monthly duty officer


7
    One Volunteer in our sample chose not to give a rating; this person had never sought medical support.

Final Program Evaluation Report: Peace Corps/Armenia                                                        12
meeting, where new information and potential scenarios are reviewed, is held for all staff that
perform duty officer responsibilities.

Crime Incident Response. The post adequately responded to crimes against Volunteers. During
interviews, many Volunteers remarked that Armenia is a very safe country. Two Volunteers in
our sample reported that they had been victims of a crime; one was reported to Peace Corps.
When asked, “If a crime were to occur to you in the future, would you report it,” 85 percent of
Volunteers said “yes” and 15 percent of Volunteers said they were “unsure” because of concerns
about administrative reprisal or insensitivity in handling sexual assault cases. In addition, at the
time of the evaluation, only some of the staff required to complete the online sexual assault
response training, had done so. 8

Housing Checks. Volunteers’ houses were generally in compliance with items on the post’s
housing checklist. The post’s housing criteria include elements related to the condition of the
house and the surrounding neighborhood. A review of Volunteers’ houses and the post’s housing
check records verified that housing checks were usually completed and documented accurately.

MANAGEMENT CONTROLS

Another key objective of our country program evaluation is to assess the extent to which the
post’s resources and management practices are adequate for effective post operations. To address
this question, we assess a number of factors, including staffing; staff development; office work
environment; collecting and reporting performance data; and the post’s strategic planning and
budgeting.

We found the post to be generally well-managed. Since 2010, the post changed its programming
and training staffing by eliminating two program manager positions and implementing a regional
manager model. The post has also designated a monitoring, reporting and evaluation (MRE)
champion and two Sexual Assault Response Liaisons (SARLs) per other agency initiatives.
While not specific to the post, multiple agency reform initiatives have required field staff to take
on responsibilities in addition to their current duties. While some staff considered these
opportunities for growth and development, some raised concerns that the added responsibilities
were not consistent with their grade and that workloads were not realistic. Staff at post and at
headquarters recognized that numerous agency initiatives required extra work of staff.

In reviewing staffing, staff development, and the post’s relationship with the U.S. Embassy, we
found no significant areas of concern that would necessitate action by the post.

Staffing. The post was anticipating leadership turnover. In 2014, the three U.S. direct hire
 (USDH) leadership positions: country director (CD), DPT and DMO will turn over. EMA
regional leadership was working to replace the positions with little interruption to post
operations. While staff turnover has not been a significant issue for the post in previous years,
the upcoming turnover of leadership positions could be a challenging time for post.

8
  The training is required for: country directors, DPTs, DMOs, SSCs, associate Peace Corps project managers,
programming and training specialists, training managers, Peace Corps medical officers, and any other staff who may
function as a duty officer or first responder.

Final Program Evaluation Report: Peace Corps/Armenia                                                           13
Staff Development. The post was attentive to staff development. In the sample of nine
performance appraisals we reviewed, all were complete and feedback was generally thorough.
Employee requests, such as a salary grade review or overtime pay, were documented and some
training needs were identified. The post budgets staff development funds for all staff to address
items identified in individual development plans. The post also participates in the U.S. embassy
awards system.

Relationship with the Embassy. The post had an effective working relationship with the U.S.
Embassy in Yerevan, and post leadership regularly participated in embassy meetings. Embassy
representatives we met with had confidence in the Peace Corps program, believed that Peace
Corps takes the safety and security of Volunteers very seriously, and welcomed opportunities to
be more involved while also recognizing Peace Corps’ independence from the Department of
State.

Office Work Environment. We found staff morale to be generally good. Most staff said that
morale had been low for staff and Volunteers after the two project area closed in 2010, but that
currently it was “normal.” Staff said that after Armenia was identified in the regional portfolio
review as one of the four “low” EMA posts, staff morale fell because they had been working
extensively to address Volunteer concerns and incorporate Volunteer suggestions. Staff reported
that they were appreciative of the CD’s openness, personal interest in them and their work, and
attention to detail. Some staff raised concerns that staffing decisions, both at headquarters and at
post, were not transparent, and personnel actions taken during evaluation fieldwork caused some
staff to revisit this issue with OIG before we left country; additional information on this follows
in the section below.

While post’s resources and management practices were generally adequate for effective post
operations, the evaluation uncovered some areas that require management attention. The
remainder of this section provides more information about these topics.

The RSO did not know how the Kate Puzey Volunteer Protection Act of 2011 (Kate Puzey
Act 9 would impact his ability to support Volunteer victims of sexual assault.

On May 11, 2012, the Peace Corps and the Department of State, Bureau of Diplomatic Security
Service (DOS/DS) signed a MOU on security support abroad. This MOU outlines the security
functions that DOS/DS will perform for Peace Corps, including support for responding to crimes
against Volunteers. The MOU stipulates that the CD will notify the RSO by email of all crimes
against Peace Corps Volunteers through the Peace Corps Consolidated Incident Reporting
System (CIRS).

Under Peace Corps Interim Policy Statement (IPS) 3-13 Responding to Sexual Assault,
implemented September 1, 2013, if a Volunteer victim of a sexual assault chooses a restricted
report, information may not be shared outside of designated staff: the PCMO, the SSC, and the
SARL. With the implementation of IPS 3-13, separate CIRS systems were developed for
restricted and non-restricted reports of crime incidents for statistical tracking purposes. The


9
    P.L. 112-57.

Final Program Evaluation Report: Peace Corps/Armenia                                              14
MOU has not been amended to clarify when and under what circumstances RSOs will be
informed about crimes against Volunteers.

The RSO in Yerevan did not know whether or how the Kate Puzey Act would impact his ability
to support Volunteer victims, particularly in the case of restricted reports. He said that his
organization was ready to support the Peace Corps, but “needed to know where he was
stepping.”

              We recommend:

                5. The country director, in coordination with the Office of
                   Safety and Security, clarify when and under what
                   circumstances the U.S. Embassy regional security officer
                   will be informed about crimes against Volunteers and
                   how U.S. Embassy regional security officer support will
                   be requested.




Final Program Evaluation Report: Peace Corps/Armenia                                         15
                               OTHER AREAS OF CONCERN
We noted the following additional areas that could be improved to enhance efficiency at the post.

Decisions affecting post staff were not clearly understood.

Some staff raised concerns that there is a lack of communication between American staff
supervisors and local Armenian staff. Upon the DMO’s arrival at the post, the DMO analyzed
personal services contractor (PSC) compensation levels and discovered that PSC salaries were
not aligned with the local compensation plan (LCP) 10. On December 30, 2012, the DMO aligned
all PSC compensation levels with the LCP, except those of seven PSCs whose compensation was
over the LCP salary scale. In consultation with the CD, the DMO froze the seven PSC salaries
indefinitely. During the OIG Audit in April 2013, the DMO was advised to consult with the
Office of Acquisitions and Contract Management, the Office of General Counsel, and a local law
firm for further guidance and was instructed by the agency to implement the salary reductions.
During evaluation fieldwork in November, the post took action to align staff salaries with the
local compensation plan.

During the DMO’s tenure, the post had also changed its overtime policy. While both of these
changes could have added efficiencies to post, some staff believed that “each administration is
looking at it differently…We don’t know what is right or wrong – only what is presented to us.”
Staff perceived that starting with the abrupt closing of the two project sectors, decisions came
from above without explanation. In previous times, local staff was involved in decisions, and
“there was a spirit of collectivism.”

Characteristics and Strategies of a High Performing Post 2.3 discusses that “there are
recognized avenues for incorporating each individual’s input into program management and
decision-making. Administrative, programming, training, medical, safety/security, and support
staff and Volunteers all have ways to express their opinions to decision-makers.” Indicator 2.4
discusses the importance of honesty in communications and transactions.

Senior staff at the post is typically made up of three U.S. direct hires (USDH) staff who are time
limited to five years. 11 Some post senior staff also raised the concern that there had been a

10
   Per the Foreign Affairs Handbook, all U.S. government agencies at a post should work together in developing
uniform policies and procedures relative to FSN compensation. An LCP is a document that contains the local salary
schedule of pay rates, statements authorizing separate benefit payments, hours of work, premium pay rates,
eligibility and other pertinent facets of compensation applicable to FSN's inclusive of conditions of work.
11
  Section 7(a) of the Peace Corps Act limits USDH staff to tours of five years. The FYR became law in August of
1965 when an amendment to section 7(a) of the Peace Corps Act brought all USDH employees, foreign and
domestic, under the same personnel system, limited their appointments to a maximum of five years, and gave the
Director limited authority to personally approve extensions of up to eight and a half years. OIG published Impacts of
the Five-Year Rule on Operations of the Peace Corps (IG-12-05-E) in June 2012 that details findings and
recommendations about this topic.

Final Program Evaluation Report: Peace Corps/Armenia                                                              16
practice of making the job description fit the person in place instead of making sure the position
is what is needed for successful post operations. Some senior staff raised concerns that their jobs
were centered on managing local staff with little agency guidance or training on the Peace
Corps’ approach to human resources management, including things like performance reviews,
using coaching for staff development, and having standard templates for statements of work, or a
standard organizational design. Concerns were also raised that it is unclear how, if in any way,
the Office of Human Resources at headquarters can support posts.

These issues have contributed to the inconsistencies in how staff is managed from one USDH
administration to the next. This inconsistency could result in a lack of trust between staff and
contribute to discontent and low morale. While we are not issuing a recommendation, we wanted
to highlight the issue for agency management.

Post staff raised concerns regarding workload and compensation.

Some staff raised concerns about having additional responsibilities added to their duties without
additional compensation. For example, each post added two SARLs 12 to comply with the Kate
Puzey Act. SARLs were selected from existing staff and responsibilities were added to existing
duties. When SARLs went through the application process, they understood that there would be
additional incentives for the additional duties. However, they currently understand that it is a
voluntary position. SARLs were asked to keep a log of actual time used to respond to victims
who request SARLs. However, this does not account for the time and responsibility of carrying
the SARL duty phone and being available to respond at a moment’s notice while on duty. The
SSC also took on greater responsibilities with the Kate Puzey Act.

Other initiatives have also added to staffs’ responsibilities. Each post has identified a MRE
champion. Programming senior staff believes that MRE is a full-time position. “If the agency
wants us to do it and do it well, they need to let us hire a full-time MRE person.”

As noted in another recent OIG report, 13 many new headquarters-mandated initiatives have been
disseminated to the field without coordination by offices involved. There was not an office or a
process at headquarters that ensured that new guidance and expectations sent to overseas field
staff were paced so as not to overwhelm the capacity of field staff to respond and comply with
them. Recognizing this, in January 2014, the Office of Global Operations issued “Standard
Operating Procedures for Headquarters Communication with Regions and Posts” to improve
how headquarters offices coordinate and manage communication with field staff. While we are
not issuing a recommendation, we wanted to highlight the issue for agency management to
inform decision-makers at Peace Corps headquarters of the impacts felt by the post and the
importance of finding ways to more carefully coordinate and manage the flow and pace of new
initiatives and expectations for overseas staff.




12
     SARLs must be available to respond to a victim of sexual assault at the victim’s request.
13
     IG-14-04-E, Mexico Final Evaluation Report (June 2014).

Final Program Evaluation Report: Peace Corps/Armenia                                             17
                          LIST OF RECOMMENDATIONS
WE RECOMMEND:

1. That the post develop a memorandum of understanding for the teaching
   English as a foreign language project with the appropriate Armenian ministry.

2. That the post develop a memorandum of understanding for the community
   and youth development project with the appropriate Armenian ministry.

3. That the director of programming and training ensure that Volunteers are fully
   informed on how to accurately complete the volunteer reporting form.

4. That the director of programming and training monitor the effectiveness of in-
   service trainings and make improvements, if necessary.

5. The country director, in coordination with the Office of Safety and Security,
   clarify when and under what circumstances the U.S. Embassy regional
   security officer will be informed about crimes against Volunteers and how
   U.S. Embassy regional security officer support will be requested.




Final Program Evaluation Report: Peace Corps/Armenia                                18
       APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY
In 1989, OIG was established under the Inspector General Act of 1978 and is an independent
entity within the Peace Corps. The purpose of the Office of Inspector General (OIG) is to prevent
and detect fraud, waste, abuse, and mismanagement and to promote economy, effectiveness, and
efficiency in government. The Inspector General is under the general supervision of the Peace
Corps Director and reports both to the Director and Congress.

The Evaluation Unit within OIG provides senior management with independent evaluations of
all management and operations of the Peace Corps, including overseas posts and domestic
offices. OIG evaluators identify best practices and recommend program improvements to comply
with Peace Corps policies.

The Evaluation Unit announced its intent to conduct an evaluation of the post on August 14,
2013. For post evaluations, we use the following researchable questions to guide our work:

   •   To what extent has post developed and implemented programs to increase host country
       communities’ capacity?
   •   Does training prepare Volunteers for Peace Corps service?
   •   Has the post provided adequate support and oversight to Volunteers?
   •   Are post resources and management practices adequate for effective post operations?

The evaluator conducted the preliminary research portion of the evaluation August through
October 2013. This research included review of agency documents provided by headquarters and
post staff; interviews with management staff representing the EMA regions, Office of Volunteer
Recruitment and Selection, Office of Victim Advocacy (OVA), OHS, Overseas Programming
and Training Support (OPATS); and inquiries to Office of Intergovernmental Affairs and
Partnerships.

In-country fieldwork occurred from November 1– 25, 2013, and included interviews with post
senior staff in charge of programming, training, and support; the U.S. ambassador, deputy chief
of mission; the embassy RSO; and host country government ministry officials. In addition, we
interviewed a stratified judgmental sample of 20 Volunteers (26 percent of Volunteers serving at
the time of our visit) based on their length of service, site location, project focus, gender, age,
and ethnicity. An additional request for an interview from a Volunteer not in the sample was
accommodated; thereby increasing the total number of Volunteers interviewed to 21.
Denominator numbers are based on the number of Volunteers who responded to our questions.

This evaluation was conducted in accordance with the Quality Standards for Inspections, issued
by the Council of the Inspectors General on Integrity and Efficiency. The evidence, findings, and
recommendations provided in this report have been reviewed by agency stakeholders affected by
this review.




Final Program Evaluation Report: Peace Corps/Armenia                                             19
                     APPENDIX B: INTERVIEWS CONDUCTED
As part of this post evaluation, interviews were conducted with 21 Volunteers, 14 staff in-
country, and 11 representatives from Peace Corps headquarters in Washington D.C., the U.S.
Embassy in Armenia, and key ministry officials. 14 Volunteer interviews were conducted using a
standardized interview questionnaire, and Volunteers were asked to rate many items on a five-
point scale (1 = not effective, 3 = neutral 5 = very effective). The analysis of these ratings
provided a quantitative supplement to Volunteers’ comments, which were also analyzed. For the
purposes of the data analysis, Volunteer ratings of “4” and above are considered favorable. In
addition, 20 Volunteer interviews occurred at the Volunteers’ homes, and we inspected 18 of
these homes using post-defined site selection criteria. The period of review for a post evaluation
is one full Volunteer cycle (typically 27 months).

The following table provides demographic information that represents the entire Volunteer
population in Armenia; the Volunteer sample was selected to reflect these demographics.

                                Table 4: Volunteer Demographic Data
                                                                     Percentage of
                                  Project
                                                                      Volunteers
              CYD                                                        45%
              TEFL                                                       55%
                                                                     Percentage of
                                  Gender
                                                                      Volunteers
              Female                                                     63%
              Male                                                       37%
                                                                     Percentage of
                                    Age
                                                                      Volunteers
              25 or younger                                              37%
              26-29                                                      21%
              30-49                                                      18%
              50 and over                                                24%
             Source: Source: Volunteer Information Database Application for Peace Corps/Armenia.
             Note: Percentages may not total 100 percent due to rounding.

At the time of our field visit, PC/Armenia had 27 staff positions. The post also employs
temporary staff to assist with PST. Given the time of our visit, these positions were not staffed.
We interviewed 14 staff. The staffing configuration of posts often varies and staff often hold
additional responsibilities relevant to the evaluation in addition to their official job title. We
conduct interviews with SARLs, grants coordinators, MRE champions and Peace Corps
Response coordinators as necessary and appropriate for the post.



14
   An additional request for an interview from a Volunteer not in the sample was accommodated; thereby increasing
the total number of Volunteers interviewed to 21.

Final Program Evaluation Report: Peace Corps/Armenia                                                          20
                         Table 5: Interviews Conducted with Post Staff
                              Position                         Status            Interviewed
      Country Director                                            USDH                 X
      Director of Programming and Training                        USDH                 X
      Director of Management and Operations                       USDH                 X
      Program Manager (2)                                         PSC                  X
      Language and Cross Cultural Coordinator                     PSC                  X
      Regional Manager (3)                                        PSC                  X
      Training Manager                                            PSC                  X
      Safety and Security Coordinator                             PSC                  X
      Medical Officer (2)                                         PSC                  X
      Driver/Mechanic (3)                                         PSC
      Administrative Assistant                                    PSC
      Executive Assistant/PR Coordinator/IRC Manager              PSC                  X
      Custodian (2)                                               PSC
      Regional IT Specialist                                      PSC
      Financial Assistant                                         PSC
      Volunteer Support Specialist                                PSC
      General Services Manager                                    PSC
      IT Specialist                                               PSC
      Cashier                                                     PSC
      Medical Assistant                                           PSC
     Data as of November 2013.

Four additional interviews were conducted during the preliminary research phase of the
evaluation, in-country fieldwork, and follow-up work upon return to Peace Corps/headquarters in
Washington, D.C.

           Table 6: Interviews Conducted with Peace Corps Headquarters Staff,
                       Embassy Officials and Key Ministry Officials
                          Position                             Organization
    Acting Regional Director                                  PC Headquarters/EMA Region
    Chief of Operations                                       PC Headquarters/EMA Region
    Chief of Programming and Training                         PC Headquarters/EMA Region
    Country Desk Officer                                      PC Headquarters/EMA Region
    Chief Administrative Officer                              PC Headquarters/EMA Region
    Regional Security Advisor                                 PC Headquarters/EMA Region
    Monitoring and Evaluation Specialist                      PC Headquarters/EMA Region
    Director, Office of Victim Advocacy                       PC Headquarters/OVA
    Associate Director, Volunteer Recruitment and Selection   PC Headquarters/Volunteer
                                                              Recruitment and Selection
    Program & Training Education Specialist, Overseas
                                                              PC Headquarters/OPATS
    Programming and Training Support
    Medical Officer, Office of Health Services                PC Headquarters/OHS
    Head of Youth Policy Department                           Ministry of Sport and Youth
                                                              Affairs of the Republic of Armenia
    Chief TEFL Specialist                                     National Institutes of Education,


Final Program Evaluation Report: Peace Corps/Armenia                                               21
                                                       Ministry of Education of the
                                                       Republic of Armenia
    Ambassador                                         Department of State/Armenia
    Deputy Chief of Mission                            Department of State/Armenia
    Regional Security Officer                          Department of State/Armenia
    Supervisory Program Officer                        U.S. Agency for International
                                                       Development/Armenia
        Data as of November 2013.




Final Program Evaluation Report: Peace Corps/Armenia                                   22
                      APPENDIX C: LIST OF ACRONYMS

 AVS                      Annual Volunteer Survey
 CIRS                     Consolidated Incident Reporting System
 CD                       Country Director
 CSPP                     Cross Sector Programming Priorities
 CYD                      Community and Youth Development
 DMO                      Director of Management and Operations
 DOS/DS                   Department of State, Diplomatic Security Service
 EAP                      Emergency Action Plan
 EMA                      Europe Mediterranean and Asia
 FITU                     Focus In/Train Up
 FY                       Fiscal Year
 IPS                      Interim Policy Statement
 IST                      In-service Training
 LCF                      Language and Cultural Facilitator
 LCP                      Local Compensation Plan
 MRE                      Monitoring, Reporting and Evaluation
 MOU                      Memorandum of Understanding
 MST                      Mid-Service Training
 OHS                      Office of Health Services
 OPATS                    Office of Programming and Training Support
 OVA                      Office of Victim Advocacy
 PAC                      Project Advisory Committee
 PCMO                     Peace Corps Medical Officer
 PSR                      Project Status Report
 PSC                      Personal Services Contractor
 PST                      Pre-service Training
 RSO                      Regional Security Officer
 SLF                      Site Locator Form
 SPA                      Small Project Assistance
 SSC                      Safety and Security Coordinator
 TEFL                     Teaching English as a Foreign Language
 VRF                      Volunteer Reporting Form
 VRT                      Volunteer Reporting Tool




Final Program Evaluation Report: Peace Corps/Armenia                         23
   APPENDIX D: AGENCY’S RESPONSE TO THE PRELIMINARY
                                          REPORT




Final Program Evaluation Report: Peace Corps/Armenia   24
                        APPENDIX E: OIG COMMENTS
Management concurred with all five recommendations. Based on the documentation provided,
we closed two recommendations: numbers one and two. In its response, management described
actions it is taking or intends to take to address the issues that prompted each of our
recommendations. We wish to note that in closing recommendations, we are not certifying that
the agency has taken these actions or that we have reviewed their effect. Certifying compliance
and verifying effectiveness are management’s responsibilities. However, when we feel it is
warranted, we may conduct a follow-up review to confirm that action has been taken and to
evaluate the impact.

Three recommendations, numbers three through five, remain open. OIG will review and consider
closing these recommendations when the documentation reflected in the OIG’s comments and
the agency’s response to the preliminary report is received. For recommendation three, additional
documentation is required.

3. That the director of programming and training ensure that Volunteers are fully
informed on how to accurately complete the volunteer reporting form.

       Concur
       Director of Programming and Training (DPT), Jim Bach, will review current data
       collection tools with staff and ensure that appropriate training is provided during PST and
       in-service trainings (ISTs and MSTs). In addition the DPT will monitor Program
       Manager VRF feedback and provide technical support to staff and volunteers when
       appropriate.

       Documents Submitted:
       MST Calendar of Training Events

       Documents to be Submitted:
       PST Calendar of Training Events

       Status and Timeline for Completion: August 15th, 2014

       OIG Analysis: In addition to providing the PST Calendar of Training Events, please
       provide the training session plan to indicate the content of the material covered.




Final Program Evaluation Report: Peace Corps/Armenia                                           28
    APPENDIX F: PROGRAM EVALUATION COMPLETION AND
                     OIG CONTACT

P ROGRAM                      This program evaluation was conducted under the
EVALUATION                    direction of Assistant Inspector General for Evaluations
                              Jim O’Keefe by Senior Evaluator Susan Gasper.
COMPLETION
                              Additional contributions were made by Program Analyst
                              Kaitlyn Large.




                              Jim O’Keefe
                              Assistant Inspector General for Evaluations


OIG CONTACT                   Following issuance of the final report, a stakeholder
                              satisfaction survey will be distributed to agency
                              stakeholders. If you wish to comment on the quality or
                              usefulness of this report to help us improve our products,
                              please contact Assistant Inspector General for Evaluations
                              Jim O’Keefe and at jokeefe@peacecorps.gov, or
                              202.692.2904.




Final Program Evaluation Report: Peace Corps/Armenia                                       29
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                          Contact OIG

                          Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                 OIG@peacecorps.gov
          Online Reporting Tool: PeaceCorps.gov/OIG/ContactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129



                     For General Information:
          Main Office:             202.692.2900
          Website:                 peacecorps.gov/OIG
            Twitter:               twitter.com/PCOIG
